U.S.   A GENCY   FOR



 D EVELOPMENT

                                                                                                              March 1, 1999



           MEMORANDUM FOR D-AA/M, Richard C.
                          Chief Information Officer


           FROM:                           Theodore P. Alves

           SUBJECT:	        Audit of         Progress Implementing a Financial Management System
                            That Meets Federal Financial Management Improvement Act Requirements
                            (Audit Report No. A-000-99-003-P)

           The Federal Financial Management Improvement Act of 1996 (PL                  (FFMIA)
           requires         to determine whether its financial management system meets Federal
           requirements that are designed to ensure that managers receive reliable information to report
           financial and performance results and to manage agency operations.’ In December 1997, the
           Administrator determined that           systems did not meet those federal requirements. The
           Act also requires         to submit a remediation plan to correct the deficiencies and the
                    Office of Inspector General (OIG) to report to the Congress if         falls behind
           remediation plan milestones.

           This report shows that         has made only limited progress improving its systems during
           the past year. Significant improvements are not achievable until existing systems are replaced
           or modernized-an effort that is scheduled to be completed in 2001.              progress has
           also been limited by planning and organizational challenges that continue to threaten its
           efforts to successfully modernize its systems. The report includes two recommendations
           which aim to strengthen            planning process and organization.




                       1

                              OMB Circular A-127 and the Chief Financial Officers Act call for agencies to implement a single
           integrated financial management system, which is a unified set of financial systems and the financial portions of
           mixed systems (those systems that support both financial and non-financial activities). Working together using
           standardized information and electronic data exchange, these systems provide the information managers need to (1)
           carry out their fiduciary responsibilities; (2) deter fraud, waste, and abuse; and (3) relate financial consequences to
           program performance. Thus, in addition to basic accounting functions, a single integrated financial management
           system includes            and performance data from supporting systems that perform performance measurement,
           budget, procurement, payroll, human resource, and other functions. Because                has not implemented a single
           integrated financial management system, this report refers to              financial management systems.


                                                      1300    P ENNSYLVANIA A V E N U E ,
                                                          W ASHINGTON , D.C.   20523
 In response to a draft report,        stated that         management and the OIG generally
 agree about the processes, plans, and documentation needed to deploy a financial management
 system that meets federal requirements. The comments also stated that the draft report
 conveys a general tone of non-compliance and gives the impression that the Agency is
 repeating earlier mistakes. Management also believes the report does not acknowledge the
 dilemma it faces trying to balance the risk of an acquisition based on less than a full
 architecture with its goal of having a new core financial system deployed in Washington by
 fiscal year 2000. Management also provided detailed comments on individual report sections.
 Those comments indicate general agreement with the findings and most recommendations.
 However, because the report and recommendations have changed, it is unclear whether
               has made a decision to implement the report’s recommendations. We will
 continue discussing the recommendations with management.

          properly characterized the tone of the report, which reflects our concerns that past
 mistakes were being repeated. The report points out several parallels with the approach
          followed in acquiring the New Management System (NMS), a system that did not
 operate effectively. They include the (1) lack of an Agency-wide blueprint before beginning
 development, (2) acquisition of a core financial system in isolation from other financial and
 mixed financial systems, and (3) lack of a comprehensive acquisition strategy supported by
 sufficiently detailed plans. We are encouraged by management’s comments, which indicate
 general agreement to modify the approach.

We believe              dilemma between completing an architecture and meeting its goal of
 deploying a core financial system by the year 2000 should be resolved based on an analysis
 of risks. We believe its approach: to purchase the core financial system before completing
 an agency-wide architecture and acquisition strategy, and without a strong program office
 creates significant risks.

 To illustrate, one factor contributing to NMS problems was that            took shortcuts in
 reaction to perceived schedule pressures. For example, even though responsible officials
 urged management to postpone deployment until problems were corrected,                  deployed
 the system worldwide in October 1996 in order to meet its deployment schedule. Based on
 its experience with NMS,             has committed to follow disciplined practices in order not
 to repeat those mistakes. However, because              has not yet prepared a realistic risk
 adjusted schedule, it is not in a position to know whether its schedule goals are achievable.
 We believe a choice between following disciplined practices and meeting scheduled goals
 should be decided in favor of following disciplined practices.

 Additional management comments and our evaluation are located on pages 14 and 19.

           complete comments have been included as Appendix Il.


 Thank you for the cooperation and assistance extended to our auditors during this assignment.




                                                  2

Background

The FFMIA requires agencies to implement and maintain financial management systems that
comply substantially with federal financial management system requirements, applicable
federal accounting standards, and requirements to post transactions to the United States
Standard General Ledger at the transaction level             Incorporating these capabilities will
help         ensure that all assets, liabilities, revenues, expenditures and the full cost of
programs and activities are consistently and accurately recorded, monitored, and reported.

The Act also requires financial statement audit reports to address whether the financial

management system complies with these system and accounting requirements. In our

March 2, 1998, report on            financial statements, we reported that the systems did not

substantially           As required by the Act, our report described the nature and extent of

noncompliance, the cause of noncompliance, and the organization                     Because

        had agreed to implement prior audit recommendations to correct the deficiencies, we

did not make additional recommendations.


The Act further requires the agency head to consider the audit report and other
and make a determination as to whether the agency’s financial management system
substantially complies with the requirements. If the system does not substantially comply
with the requirements, the agency must prepare a remediation plan that includes the resources,
remedies, and intermediate target dates needed to bring the system into substantial
compliance. In that case, the Act requires Inspectors General to report to the Congress if the
agency does not meet the intermediate milestones identified in the plan. In a December 1998
financial management system status report to the Office of Management and Budget (OMB),
          Chief Financial Officer (CFO) reported that            systems did not substantially
comply with            requirements and presented a remediation plan to correct the problems.

The       “financial management system” deserves clarification, because it is sometimes
interpreted to refer only to accounting systems. However, OMB Circular A- 127, Financial
Management Systems, defines the term more broadly. Circular A- 127 calls on agencies to
implement single integrated              management system, which is a unified set of
financial systems and the financial portion of mixed systems that are used to carry out
financial management functions; manage financial operations; and report financial and


              SGL provides a standard chart of accounts and standardized transactions that agencies use to record
accounting transactions and events consistently across the federal government.

             Reports on         Financial Statements,, Internal Controls, and Compliance for Fiscal Years 1996 and 1997,
(Audit   Report No. 0-000-98-001-F, dated March 2, 1998).

             companion report provided additional detail about the requirements and the nature and extent of
system deficiencies. Audit of the Extent to Which         Financial Management System Meets Requirements Identified
in the Federal Financial              Improvement Act of 1996, (Audit Report No. A-000-98-003-P, March 2, 1998).

                                                            3

performance information to central management agencies, the Congress, and the public.
Financial systems are those that support the functions of tracking financial events, providing
financial information to agency managers, or preparing financial statements. Mixed systems
are those that support both financial and non-financial functions of the agency, such as
systems to process budgets, contracts, grants, or other acquisitions. The reason the term is
broadly defined is that the systems are expected to support not only basic accounting
functions but also to provide the integrated budget, financial, and performance information
managers need to (1) understand the implications of their decisions, (2) track the results of
their programs, and (3) facilitate policy changes to improve operational efficiency or
effectiveness.

     �

         Objective
This audit was designed to answer the following question:

�        What progress has         made in bringing its financial management systems
         into compliance with the Federal         Management Improvement Act of


To answer this question we analyzed (1) the extent to which the systems meet FFMIA
requirements, and (2) the adequacy of remediation plans to bring the systems into compliance
with the          Although we focused’on analyzing             remediation plan, we also
reviewed other                                 plans and activities to implement an effective
financial management system. A full             of our scope and methodology is contained
in Appendix I.


Summary of Results
        has made only limited progress improving its systems during the past year.
Significant improvements are not achievable until existing systems are replaced or
modernized-an effort that is scheduled to be completed in                      progress is also
limited by planning and organizational challenges that threaten its efforts to successfully
modernize its systems.          developed a remediation plan to correct the systems’
deficiencies. However, the plan is not adequate because it is not based on a full information
system architecture, a comprehensive acquisition strategy, or a detailed listing of planned
actions to bring about an agency-wide integrated financial management system. These
planning deficiencies occurred, in part, because         executives have not implemented
organizational changes that are needed to successfully acquire complex systems.
Organizational deficiencies include the fact that        executives have not established a
program management office with sufficient staff, expertise, and authority to ensure that
modernization efforts are implemented successfully.
                 �

Audit Fmdmgs

         Financial Management System Does Not

Yet Substantially Comply With FFMIA Requirements

        managers have committed to follow disciplined practices to modernize
systems and have taken several steps to do so. However, during fiscal year 1998,
financial management systems did not yet comply substantially with (1) federal financial
management system requirements, (2) applicable federal accounting standards, and (3)
requirements to post transactions to the United States Standard General Ledger at the
transaction level.          recognizes that, because its financial management systems do not
incorporate these accounting and systems’ requirements, managers do not always receive the
complete, reliable, timely, and consistent information they need to reliably report financial or
performance results or efficiently manage agency operations.             has decided to report
this condition in its fiscal year 1998 Accountability Report, and is taking action to implement
a financial management system that complies with these

Additional information describing these systems’ requirements and the degree to which
       systems comply with each requirement is presented in Appendix

               Remediation Plan Is Not Adequate
        also faces planning and management challenges that could threaten its progress
modernizing its systems. In particular, the remediation plan the CFO developed to bring
systems into compliance with FFMIA is not adequate. First, because the Chief Information
Officer (CIO) has not completed an agency-wide information technology architecture6 to
guide and constrain planned investments,           lacks assurance that its new systems will
operate effectively together, support business needs, and provide adequate security. Second,
the acquisition strategy-to replace one component of the financial management system
before adequately analyzing other business needs and system alternatives-may preclude
        from implementing the most cost effective system. Third, the lack of supporting
plans describing the remedies (projects and tasks), resources, and interim milestones
(schedules) needed to correct the deficiencies, creates a substantial risk of delays, cost
increases, and system performance shortfalls. At this time,             has not met
requirements to justify new system investments.



                 is one of six agencies participating in the 1998 Agency Pilot Accountability Reports, which are to be
submitted on March 31, 1999.

               architecture is a blueprint or high level description of how the systems will interact to accomplish agency
mission requirements in a cost effective manner. It focuses on describing the relationships among business functions,
work processes, information flows, and technology. It also describes standards to be followed to ensure that systems will
interoperate, provide security, and be implemented in a disciplined manner.
             Has Not Developed an ’
       Information          Architecture

 A sound and integrated information. technology architecture is essential to successfully
 implement a complex system modernization effort. Although an architecture is required
legislation and OMB guidance,              CIO has not yet completed an agency-wide
 information technology architecture to guide and constrain its planned investments. As a
 result,        lacks assurance that replacement systems will operate together effectively,
 support business needs, or provide adequate security and management controls.

The Clinger-Cohen Act makes the CIO responsible for developing, maintaining, and
facilitating the implementation of an agency’s information technology architecture. This
responsibility includes ensuring that (1) the requirements for Agency-sponsored information
systems are aligned with the processes that support the agency’s missions and goals, (2)
information systems have adequate interoperability, redundancy, and security, and (3) the
agency applies and maintains a collection of standards to evaluate and acquire systems.

The General Services Administration (GSA) recently pointed out that it is highly unlikely that
a complex system can be successfully implemented if it is not based on a sound, integrated
architecture. The architecture is essential because it provides a blueprint of how related
agency systems will be acquired and will work together to achieve strategic mission goals and
satisfy business requirements. Separate architectures describe both the currently operating
systems environment, called the “baseline” or “as is” architecture, and the planned systems
environment, called the “target” or “to be” architecture. Because organizations face a number
of different and often conflicting choices when implementing a complex system, it is
important that they consider mission requirements and organizational goals and constraints
when developing the architecture. Once the architecture is completed, managers use it to both
guide and constrain the acquisition and implementation of new technology.

 OMB has provided guidance describing minimum requirements for an information technology
 architecture. The guidance, contained in            Memorandum 97-16 calls for agencies to
 develop. both an enterprise architecture and a technical reference model and standards profile.
 The enterprise architecture describes the relationships among agency business processes and
 activities, business applications, data descriptions, and the technology infrastructure. The
 technical reference model describes information services that are used throughout the agency,
 such as database standards, communications functions, and system security requirements. The
 standards profile defines standards and specifications to ensure compatibility among system
 components. Profiles are often based on commercial or industry standards to help’ the agency
 obtain compatible components. To be complete, the standards need to address hardware,
 software, user interfaces, communications, data management, and implementation approaches.
 The guidelines also emphasize the importance of implementing a comprehensive set of
 computer security standards to ensure that systems and                are protected from
 unauthorized alteration, loss, or destruction.


                                                6

Although an architecture is critical to the successful implementation of an integrated financial
management system,              has not yet developed such an architecture. According to
         documents and responsible officials, the architecture is scheduled to be completed by
          systems integration contractor in May 1999.               NMS Executive Team
meeting minutes show that the team has discussed the importance of developing a complete
architecture to guide implementation of an effective financial management system, the team
decided to proceed to acquire a replacement core financial system before completing the
architecture. The team decided to proceed on the basis of a preliminary architecture, which
also has not yet been completed. Although             will not have a complete architecture, its
schedule calls for it to issue a Letter of Interest      to vendors in early 1999 requesting
proposals to replace the core financial system with a commercial off-the-shelf system. As a
result, decisions to date have not been guided by an architecture.

 Also,           documents show that this preliminary architecture, even when completed, will
 cover only the core financial system and requirements to support the FM organization. As a
 result, it will not meet OMB guidance to address agency-wide requirements related to
 security, or other financial management systems, including procurement, budget, operations,
 human resources, payroll, property, and inventory. Our prior reports show that these systems
      do not meet FFMIA requirements and             will need to modernize or replace them to
 comply with federal accounting and system requirements.

 According to         officials, the planned LO1 will include the preliminary architecture.
However, because the preliminary architecture will not contain sufficient information to
 describe key elements of the agency-wide architecture, the LO1 may not include sufficient
             about         for vendors to properly bid on a replacement for the core financial
 system. Further, without an agency-wide architecture, vendors may not be able to propose a
 system that best meets            needs and         may not be able to properly evaluate
 vendor offers to ensure that the proposed system will align with other business processes and
 provide adequate interoperability, redundancy, and security. Accordingly,          risks
 selecting a replacement system that will not meet agency-wide business needs or provide
 adequate security.

 Security requirements provide a good illustration of the impact of proceeding without a
 complete architecture. A well-designed architecture decreases the risk of implementing
 systems that provide inadequate security. However, because the preliminary architecture will
 not include a description of security standards or approaches,         is at risk of acquiring a
 system that does not support overall agency security requirements. Meeting security
 requirement is particularly important at         because pervasive computer security
 deficiencies have led         managers to identify computer security as an agency-wide
 material management control weakness. Without security standards, managers will not have a
 guide to ensure an integrated security approach for the replacement of its financial
 management systems.              computer security program needs to operate across all
 financial management systems to prevent unauthorized access to financial data and resources.
 Without an architecture to describe how such a program will operate across future financial

                                                7

management systems, a security program may operate effectively on a replacement for the
core financial system, but may not operate effectively across other financial management
systems.

Overall,          plan to proceed to acquire a replacement core financial system before
completing an agency-wide information technology architecture significantly increases risks
and repeats a costly mistake that occurred when          recently developed the New
Management System (NMS). In that case, the core financial subsystem, called AWACS,
developed independently of the other subsystems. A primary cause of subsequent NMS
deficiencies was that the subsystems did not operate in an integrated manner. The fact that
the subsystems were designed and developed independently is also a significant contributor to
pervasive security deficiencies.

             Has Not Developed a
       Comprehensive Acquisition Strategy

        has also not developed a comprehensive acquisition strategy to implement an
integrated financial management system that meets federal accounting and system
requirements.           current remediation plan is based on an acquisition strategy that
contemplates replacing the core financial component of its financial management system
before adequately analyzing its other business needs and developing a modular acquisition
strategy. This approach may preclude           from implementing the most cost effective
combination of systems.

The plan calls for         to acquire a commercial core financial system with a managerial
cost accounting component. Some of              older/legacy accounting systems would be
eliminated and some financial management responsibilities would be outsourced. Under this
strategy,        plans to integrate the new core financial system with the remaining three
NMS subsystems (Procurement, Budget, and Operations).

However, the strategy does not address other important financial and mixed systems that
provide financial management information. These systems, which must operate together to
meet federal requirements, include human resources, payroll, property management, and
inventory systems. We also previously reported that the three NMS subsystems suffer from
significant performance and security deficiencies and do not meet FFMIA requirements.’
Although the Assistant Administrator for Management (AA/M) agreed to complete an analysis
to identify the most cost effective approach to correct these deficiencies in response to that
report,         has not done so. Because            has not completed that analysis, it does not
have the information needed to assure that its plan to integrate these three NMS modules with
the core          system represents the most cost effective approach.



        ‘Report on Audit of the New Management System   Status. (Audit Report No. A-000-98-004-P. dated
March 31, 1998).

                                                   8

The timing of the analysis is important because contractors who bid on the core financial
system may also offer related procurement, budget, and other modules that could meet
          needs. Unless requirements for these functions are well enough defined for the
contractor to bid on them, however,             may not be in a position to select the vendor that
offers the best overall solution. To illustrate, without first identifying its business needs and
analyzing other financial management components (i.e., budget, procurement, operations, and
human resources),           risks selecting a core financial system replacement that will not be
the best overall solution for the Agency. That is, it may meet the business needs of the
Financial Management Division, but it may not be sufficiently expandable or adaptable to
integrate with or meet the business needs of other financial management functions.

Further, without analyzing other financial management functions,             will not be in a
position to reliably conclude that it has focused on the business areas that will provide the
highest risk adjusted return on investment. For example, human resources, payroll, and small
purchases may provide a higher return than the other NMS subsystems.

Although          managers recognize the need for a comprehensive strategy, they have not
yet completed such a strategy. As early as March 27, 1998, NMS Executive Team meeting
minutes noted the need to create an integrated vision so that it could make decisions
regarding investment strategies, develop plans, and apply performance indicators to monitor
progress toward achieving results. To date, however, the team has not created such a vision,
or developed a strategy, plans, or performance measures. Until            considers all
and mixed financial systems, analyzes alternatives, and streamlines its business processes, it
will not be in a position to         a modular acquisition strategy or a sound economic
business case to demonstrate that it has selected the best alternative.

           current approach also does not meet OMB’s guidelines for evaluating information
technology investments’ or preparing and submitting budget                 OMB’s guidelines for
information technology investments emphasize the need to take a comprehensive approach to
select, control, and evaluate information technology investments. To select investments for
funding, the guide calls on agencies to define a portfolio of investments by screening project
proposals; analyzing risks, benefits, and costs; and prioritizing and funding projects based on
risk adjusted returns on investment. Although the process calls for discipline and structure in
developing an investment strategy, it also provides flexibility by recognizing that the amount
of documentation and depth of analysis will vary depending on the type of project and its
acquisition phase. For example, less information would be required for projects in the early
planning stages than for projects that are ready for implementation. Thus, investment analysis
is an iterative process that provides more precise information to decision makers as the


       *Evaluating Information Technology Investments: A Practical Guide (Office of Management and Budget,
November 1995).

          Circular A-l 1, Preparation and Submission of Budget Estimates        of Management and Budget,
November 1998).
project matures. OMB’s budget submission requirements also call for a comprehensive
approach to justify investments. The justification requires a description of the acquisition
strategy, including a description of competition and modular acquisition approaches.

       Supporting Plans Do Not
       Contain Sufficient Information

To correct the deficiencies in its financial management system          began planning, during
fiscal year 1998, to develop an effective agency-wide integrated financial management system
that will meet all federal accounting and system requirements. However, these plans are not
adequate to meet OMB directives and best practice guidelines. Experience shows that without
adequate plans, management can have little assurance that systems will be successfully
deployed within cost and schedule estimates. Because planning is a fundamental element of
sound information technology acquisition practices, acquiring system components before
developing comprehensive plans at the proper level of detail increases risks of encountering
delays and cost increases.

As required by OMB guidance for preparing budget requests (OMB Circular A-l
submitted a remediation plan to OMB in December 1998.                  plan describes its
approach to implement an integrated financial management system that satisfies federal
system requirements described in the FFMIA. OMB’ Circular A-l 1 requires plans to
describe current systems and their major deficiencies; planned systems and the strategy for
implementing those systems; and the projects required to move from the existing to the new
system configuration, including the remedies, resources, and interim milestones needed to
correct deficiencies. OMB also requires agencies to include an inventory of current and
planned systems as well as schematics describing the relationships among current and among
planned systems. Although OMB does not require agencies to submit detailed plans, the
ability to provide the required information provides an indicator of the status of agency
planning activities.

However, neither the remediation plan nor supporting plans contain the information called for
in OMB’s guidance. Instead, the remediation plan focuses almost exclusively on accounting
systems controlled by            Financial Management Division and does not describe all
significant current or planned financial management systems. Although it briefly mentions
the other three NMS modules (procurement, operations, and budget) it does not address other
mixed systems such as personnel, payroll, property management, and inventory systems. It
also does not fully describe the problems associated with the current systems--especially
problems that have prevented the three NMS modules from operating effectively and
computer security and internal control deficiencies. Nor does the plan include a full
inventory of current or planned financial management systems or schematics describing
system relationships.

Furthermore, the plan does not adequately describe the projects needed to meet federal
requirements or the remedies, resources, and intermediate target dates that are called for by

                                                10

the FFMIA and            guidance.         managers are not in a position to identify the
projects that will remedy its noncompliance with FFMIA requirements because they have not
completed an architecture, analyzed alternatives, or developed an acquisition strategy.

Regarding resource requirements,             plan estimates that it will cost $13.5 million to
fully implement the remediation plan, but that estimate significantly understates the costs
required because it only covers the cost to replace the core financial system. An independent
cost estimate prepared in early 1998 by a          contractor estimated that it would cost over
$50 million to bring           systems into compliance with FFMIA requirements.

Regarding milestones, the plan describes a mix of activities with a broad range of dates.
Activities and milestones include: improving accountability                strengthening the
Financial Management organization                improving financial management systems
             conducting internal control reviews               improving asset management
             and generating audited financial reports (1998-2002). Some of the financial
system milestones are shown in the chart below:

...
.. ...




[
                      Description of Financial Systems Activity                  Schedule
         Ensure all Agency financial systems conform to A-127 and JFMIP       1998-2000
         “core” requirements
         Develop an operational data warehouse/corporate database              1998-2000
         Develop/implement replacement accounting system                       1998-2000
         Develop upgraded management information systems for budgeting and    1998-1999
         program management


Although one manager maintains an informal plan for the “develop/implement replacement
accounting system” project, that plan has not been reviewed and approved by management.
Validated and approved plans would provide senior managers with a better basis to assess
whether targets are achievable, measure progress, and hold managers and developers
accountable for achieving objectives. We believe the lack of supporting planning details
creates a substantial risk of delays, cost increases, and system performance deficiencies.

                          Not Met OMB Requirements

              to Justify New System Investments


A series of rules, referred to as Raines’ Rules, reflect key OMB and legislative concerns and
provide a framework for evaluating information technology investments. They also provide a

                                                    11

framework for justifying funding for investments in major information systems. These rules
are incorporated in OMB’s Circular A-l 1 guidance to agencies for preparing budget requests.
The eight Raines’ Rules require that, to be considered for funding in the President’s budget,
information systems investments should:

       Rule No. 1:	 Support core/priority mission functions.

       Rule No. 2:	 Be undertaken because no alternative private sector or government
                    source can efficiently support the function.

       Rule No. 3:	 Support work processes that have been simplified or otherwise
                    redesigned to reduce costs, improve effectiveness, and make maximum
                    use of commercial off-the-shelf technology.

       Rule No. 4:	 Demonstrate a projected return on investment that is clearly equal to or
                    better than alternative uses of available resources.

       Rule No.       Be consistent with the information architecture which integrates work
                      processes and information flows with technology to achieve strategic
                                specify standards to enable information exchange and
                      resource sharing.

       Rule No. 6:	 Reduce risk by: avoiding or isolating custom-designed components...;
                    using fully tested pilots, simulations, and prototypes...; and establishing
                    clear measures and accountability for project progress.

       Rule No. 7:	 Be implemented in phased, successive chunks.

       Rule No. 8:	 Employ an acquisition strategy that appropriately allocates risk between
                    government and the contractor.

Using Raines’ Rules as a guide, we found that            had not met Rules No. 3, 4, 5, 6 and 7
and concluded that           has not met OMB’s requirements to justify new system
investments. Rule No. 3 was not met because business areas other than core accounting have
not been subject to process redesign. Rule No. 4 was not met because               has concluded
that the core financial system and other NMS modules have the highest rate of return on
investment, even though other areas have not been fully analyzed. For example, human
resources, payroll, and small purchases modules may have a higher return on investment than
a large procurement module. Rule No. 5 has not been met because                had not
developed a system architecture to guide NMS replacement efforts. Rule No. 6 has not been
met because           has not identified clear measures and accountability for project progress.
Rule No. 7 has not been met because             is proceeding to acquire the first component in
a modular acquisition without having defined the other components.


                                               12
       Remediation Plan Conclusion

       and Recommendations


The planning weaknesses identified in this report provide an early indicator that           is at
risk of repeating past mistakes that led to deployment of a system that did not operate
effectively. Parallels with the earlier effort include the lack of an agency-wide blueprint
before beginning development, the fact that the core financial system replacement is being
conducted in isolation from other financial management systems, and the lack of an integrated
strategy supported by an investment analysis and detailed plans. To address these planning
issues, we recommend the following:

       Recommendation No. 1:       We recommend that, before approving proposals to
       acquire any financial system component, the Chief Information Officer:

       1.1	    complete an agency-wide information technology target architecture that
               contains all elements identified in       guidance at a sufficient level of
               detail to provide a high degree of assurance that         financial
               management system enhancement projects are consistent with the target
               architecture; integrate redesigned work processes and technology to
               achieve the Agency’s strategic goals; and conform to standards for
               information exchange, security, and resource sharing;

       1.2	    use the target architecture to define       financial management system
               portfolio in accordance with OMB’s guidelines for selecting information
               technology investments;

       1.3	    complete a modular acquisition strategy that (a) reduces integration risk’
               and leads to an integrated financial management system as defined by
               OMB Circular A-127.

        1.4	   revise and update the remediation plan and develop sufficiently detailed
               supporting plans.


       Management Comments and Our Evaluation

Responding to the remediation plan section, management provided a detailed discussion of the
issues and stated that it (1) was in the process of developing an information technology
architecture, (2) planned to use a modular acquisition strategy, and (3) planned to update and
strengthen its remediation plan..          appeared to generally agree with the draft report’s
findings and recommendations, but the detailed response contained several qualifications and
suggested modifications to the recommendations. Due to the fact that we incorporated some,
but not all of the suggested changes to the recommendations, it is unclear whether             has
reached a management decision to implement the recommendations.

                                                13
Regarding the need for a comprehensive information technology target architecture, the
comments stated that           was discussing, with its PRIME contractor, a             to
validate the baseline architecture, address gaps in the business model, and establish an
approach to complete a target architecture. The comments stated that the architecture would
be completed in June 1999, and would contain a sufficient level of detail to (1) ensure that
          financial management system investments integrate work processes and technology
to achieve the Agency’s strategic goals and objectives, and (2) conform to standards for
information exchange and resource sharing among financial and mixed-financial systems.
However, the comments also indicated that the level of detail required to support the
acquisition of the core accounting system was still under discussion and that a condensed
version of the architecture might contain a sufficient level of detail to proceed.

We believe          needs to develop an agency-wide architecture that includes all elements
required by OMB to guide the acquisition of a core financial system in order to successfully
deploy an integrated financial management system. We believe the architecture should
contain sufficient detail to reduce risks to a relatively low level before          acquires any
financial management system component. To illustrate, although all financial management
functions should be addressed,            might not need to fully describe all information flows
for a function that does not have a significant financial impact. We modified our
recommendation to recognize that the                    of what constitutes a sufficient level of
detail should be based on the level of risks. Because we revised the recommendation to
include consideration of risks, it is unclear whether           has reached a management
decision to implement Recommendation No. 1.1.

Regarding the need for a comprehensive acquisition strategy;           stated that it would use
a modular acquisition strategy to identify potential capital investments. Further, it explained
that the core financial system investment has been sequenced as the first investment to
address the material weakness in the primary accounting system. Management stated its
commitment to a modular strategy that will take advantage of evolutions in technology, limit
the use of custom developed system components, and reduce integration risks by applying
architectural standards. Following the acquisition of the core financial system, additional
investment analysis and acquisition planning would be initiated for the next incremental
investment. Management stated that this approach meets the statutory preference for modular
contracting, while the approach we recommended would require substantial additional
investment analysis without knowing the opportunities presented by the selected product.

Although this approach represents a significant improvement over that described in the
remediation plan, it appears that         still plans to acquire the first module before
identifying and analyzing the other modules that will make up the financial management
system. We continue to believe that             needs to identify and analyze the other modules
before proceeding with the first component. GSA’s modular acquisition guide points out that
a key element of a modular strategy is understanding, before deciding to buy individual
components, what modules will make up the system and how the various components can be
integrated into a single system. Identifying the modules, in turn, requires a high level logical
system design. In addition, to assure that agencies achieve the highest risk adjusted rate of
return their investments,           guidelines for managing capital investments call for each
agency to create a portfolio of investments, based on economic analyses. On the other hand,
we recognize that the amount of information available early in the acquisition process may be
limited, and that subsequent analyses may be needed to refine the strategy and better sequence
components. Because our draft report may not have clearly described this distinction, we
revised the report and the recommendations to better describe the need for an iterative
investment analysis process. Because the report and recommendations have changed, it is
unclear whether          has reached a management decision to implement Recommendation
Nos. 1.2 and 1.3.

Regarding the need to revise the remediation plan, the comments stated that the plan was
preliminary and would be revised following completion of the investment analysis and
detailed acquisition planning. We do not believe it is necessary or appropriate to wait until
detailed acquisition plans are complete to revise the remediation plan. The remediation plan
is a legislative requirement that calls for identification of the resources, remedies, and
intermediate target dates needed to bring the system into substantial compliance with federal
requirements. Further, OMB guidance for preparing budget requests identifies the minimum
requirements for a remediation plan including a description of current systems and their
deficiencies, planned systems and the strategy for implementing them, and the projects
required to move from the existing to the new system configuration.               should be able
to meet these minimum requirements when it completes a modular acquisition strategy. We
revised the recommendation to provide this time frame. Because the recommendation has
changed, it is unclear whether           has reached a management decision to implement
Recommendation No. 1.4.


Organizational Deficiencies
Continue to Hinder Efforts
to Implement Systems
        executives have committed to correct management deficiencies that have, in the past,
prevented successful modernization of             financial management systems. However,
continuing organizational deficiencies contribute to           failure to complete an
wide information system architecture, develop an integrated modular acquisition strategy,
prepare detailed planning documents, and comply with Raines’ Rules. Organizational
deficiencies include the fact that        executives have not established a program
management office with sufficient staff, expertise, and authority to ensure that modernization
efforts are implemented successfully. In addition, a companion report concluded that




                                                15

executives had not delegated to the CFO the responsibility and authority to develop and
maintain all financial management systems as required by the CFO Act.”

         executives recognize that more effective information resource management processes
are essential to implement systems that meet FFMIA requirements. During fiscal year 1998,
         executives authorized a number of important steps to strengthen organizational control
and institute disciplined information technology investment management processes. To
illustrate, in May 1998,           hired a contractor to assist with information technology
planning, technical direction, oversight, policy formulation, system acquisition, and
management practices. The contractor is expected to help                improve its application of
disciplined processes as it moves to modernize its financial management systems. In addition,
the Financial Management Division has made significant progress implementing disciplined
practices to modernize the core accounting functions. These               hiring a contractor to
assist in its efforts to streamline business processes and to implement an effective core
financial system.

               Has Fragmented the
        Chief Financial Officer’s Responsibilities

As reported in our audit of           consolidated financial statements, internal controls, and
compliance for fiscal year 1998, we found that            has not assigned its CFO the
responsibility and authority to ensure that all financial management systems satisfy
wide information requirements. That report pointed out that The Clinger-Cohen Act of 1996
makes the head of each agency, in consultation with the Chief Financial Officer and Chief
Information Officer accountable for establishing policies and procedures that ensure system
development activities successfully meet agency information needs. Although these officials
have taken positive steps to correct the financial management system deficiencies, fragmented
line management responsibilities continue to hinder             efforts to correct the
deficiencies.

          CFO has not been delegated the responsibility or authority to oversee financial
management activities other than basic accounting functions. In particular, the CFO has not
been delegated the specific responsibility for the information systems that support the
performance measurement, budget, human resource, or procurement functions. Thus, the CFO
lacks the authority to implement an effective integrated financial management system.

For this reason and due            financial management and performance measurement
deficiencies identified, that report recommended that the CFO work with the CIO and other
senior executives to:




             Reports on          Financial Statements, Internal Controls, and Compliance for Fiscal Years 1997 and
1998, (Audit Report No. 0-000-99-001-F, dated March 1, 1999).

                                                        16
      Determine the specific responsibility, authority, and resources needed to meet the
      requirements of the Chief Financial Officers Act of 1990, which assigns the Chief
      Financial Officer responsibility to (1) develop and maintain an integrated accounting
      and financial management system, (2) approve and manage financial management
      system design and enhancement projects; and (3) develop a financial management
      system that provides for systematic measurement of performance.

       Request that the Administrator specifically delegate adequate responsibility, authority,
       and resources to the Chief Financial Officer to satisfy those Chief Financial Officers
       Act responsibilities.

       Implement policies and procedures to carry out the responsibilities delegated by the
       Administrator.

            Lacks a Program

       Management

        continues to manage modernization efforts through committees rather                       .
the recommended program office management structure. Although a strong program office
led by a program manager with the skills, authority, and responsibility needed to plan and
implement major systems is recognized to be a key success factor,           does not use a
program management approach to manage its financial management modernization efforts.
Instead,         executives managethe modernization effort by building consensus among
responsible officials about the best course of action. As a result,         program
consists of one individual who has no authority to make modernization decisions.

Based on industry experience and the program performance mandates of the Government
Performance and Results Act, the Federal Acquisition Streamlining Act, and the
Clinger/Cohen Act, “best practices” call for the creation of a strong program office to
implement the acquisition of information technology systems. Best practices also call for this
office to be headed by a program manager who is responsible for ensuring that an
organization’s long-term and             needs are met by its planned acquisitions. The
program manager should be responsible for establishing program performance goals, ensuring
that acquisitions are adequately planned and implemented, preparing program-related portions
of solicitation documents, and monitoring contractor performance. The General Services
Administration has also stated that an effective program office is essential to a successful
modernization project.

Audit reports and other studies have repeatedly recommended that         strengthen its
management processes, but           has not done so. The deficiencies were first pointed out
in a study conducted by the Software Engineering Institute in June 1995 which cited
undisciplined management processes, undefined organizational roles and responsibilities, and a
poorly defined decision-making and commitment process as risks to the project’s success. In
a March 1997 report” we recommended’ that               appoint a senior manager to manage the
NMS project and direct the project manager to (1) analyze NMS deficiencies, (2) implement
disciplined practices, and (3) identify alternative implementation strategies. A February 1998
report on the NMS development process, performed under a contract with the General
Services Administration’s Federal Systems Integration and Management Center, concluded
that         does not have an NMS development organization with clearly defined roles,
responsibilities, and authorities. The report further concluded that this diffusion of
responsibility had fragmented efforts and eroded accountability for results. Among other
problems, the study pointed out that (1) a culture of informal communications and
management by committees and consensus inhibit timely and effective                        (2)
the fragmented and complex NMS organization discourages accountability and inhibits
productivity; and (3) the lack of a well defined project management process inhibits
consistent delivery of products on time and within budget.

Although          appointed a program manager for NMS in response to our March 1997
report, the manager was not provided staff or decision-making authority and program
management responsibility and authority still are not clearly defined. The NMS program
manager has no staff and no authority to direct modernization activities. Instead, this official
acts as a coordinator who attempts to build consensus among various individuals and
organizations participating in the modernization effort.         also has an NMS Executive
Team Board, whose members include the CIO (Chairman), CFO, and heads of other offices
including Budget, and Procurement. The Board is responsible for providing management
oversight of NMS program activities, providing guidance to the NMS program manager and
other involved offices and work teams, and managing NMS risks. The Board attempts to
operate by consensus, but the charter calls for decisions to be made by voting. In addition,
two integrated product teams have been formed to direct implementation of the core
accounting system and the managerial cost accounting system. The following organization
chart shows           organizational structure for managing its modernization project.




          Audit of the Worldwide deployment of the New Management System    (Audit Report No.
97-004-P).

                                                  18
IT Investment Management




 The lack of a program management           function with the authority to make decisions and
 the resources to implement the decisions significantly increases the risk that
 modernization efforts will encounter delays and cost increases and that the system will not
 operate effectively when deployed. In fact, the planning deficiencies cited in this report
 might not have occurred if a strong program manager had the authority to enforce disciplined
 practices.

                                              19

       Conclusion and Recommendation

       on Organizational Deficiencies


        has committed to correct the management deficiencies that have, in the past,
prevented successful implementation of a financial management system that meets federal
accounting and system requirement.            has also taken several important steps in that
direction by establishing an investment review board, hiring a systems integration contractor,
and following disciplined practices to replace the core financial system.

However, because organizational deficiencies appear to be at the root of the planning
weaknesses,           executives need to ensure that the CFO and CIO work together to
enforce disciplined system development practices throughout the agency, including the use of
a strong program management office to guide modernization efforts. To address this
organizational issue, we recommend the following:

       Recommendation No. 2:         We recommend that the Chief Information Officer
       work with      Chief Financial Officer and the Assistant Administrator for
       Management to establish a strong program management office or function, with
       sufficient responsibility, authority, and resources to apply disciplined practices to
       implement financial management system improvements.


Management Comments and Our Evaluation                            .

Responding to the draft report’s organizational deficiencies section,        management
stated that it had established a financial management integrated product team to oversee the.
business planning and investment analysis phases of the project and that this approach met
federal guidance and best practice requirements. Management also stated that           would
organize and staff a program management team once the investment review board approved
the proposed core financial system investment. The team, under the direction of a designated
program manager would then develop detailed plans to acquire the core financial system.
         also referred to the team as a program management function rather than an office,
because an “office” is a specific organizational unit at

We do not believe this response adequately addresses the findings and recommendation to
establish a strong program management office--or function. The response indicates that
        plans to continue to postpone implementing a strong program management office
function with a program manager who is responsible and accountable for the success of the
project. As pointed out in this report,        has a long history of reluctance to implement
this recommended managementapproach. We believe the continuing lack of an effective
program office function accounts, in part, for the fact that, two years later,        has not
completed an architecture, modular acquisition strategy, or sufficiently detailed plans.



                                               20

We also disagree with          management’s assertion that its current approach meets federal
guidance and best practice requirements. According to responsible officials, USAID believes
that it implemented a Department of Defense best practice by instituting an integrated product
team. However, integrated product teams at the Defense Department are part of a strong
program management office. The teams report to the program manager and carry out
responsibilities assigned by the manager. At            the team does not report to
manager and has not been assigned responsibility to implement an integrated financial
management system. The team is only responsible for implementing the core financial
system, which demonstrates the continuing fragmented nature of               organizational
structure. A key reason that          has not developed integrated financial system
modernization program is that it has not established a single integrated program office
function. This report points out that         is repeating past mistakes by fragmenting
responsibility and allowing one system component to proceed disconnected from the others.
The lack of an program management            responsible for implementing an integrated
system, in our view, is a major contributor to these continuing difficulties.
management has not reached a decision to implement Recommendation No. 2.




                                              21

                                                                               APPENDIX I
                                                                                Page 1 of 2




Scope
Our review of the extent to which            financial management systems met the.
requirements of the Federal Financial Management Improvement Act of 1996 included
determining, as of September 1998, whether              financial management systems
complied substantially with federal requirements for financial management systems, applicable
federal accounting standards, and the requirement to post transactions to the United States
Standard General Ledger at the transaction level, as required by Section 803(a) of the Federal
Financial Management Improvement Act of 1996. To reach conclusions about the extent to
which financial management systems substantially comply with federal accounting and system
requirements, we reviewed the results of audit reports we issued in fiscal years 1997 and 1998
that identified financial management system deficiencies as well as management and
contractor assessments. We also reviewed evidence gathered during the audit of
financial statements and confirmed the continued existence of the deficiencies with officials
from the Financial Management and Information Resources Management Divisions.

We also reviewed the adequacy of            plans to correct the systems deficiencies,
considering planning to be a key indicator of progress. The scope of our work related to
planning included those financial management systems which were operational in
during fiscal year 1998 and planned improvements described in            “Chief Financial
Officer Strategic Plan Fiscal Years 19982002.” To reach a conclusion we reviewed the
remediation plan as well as supporting plans and other documents describing
analyses and we discussed relevant issues with responsible managers.

This audit was conducted between December 1, 1998, and January 15, 1999 in accordance
with generally accepted government auditing standards. Field work was conducted primarily
in          Bureau for Management, Office of Financial Management, Office of Information
Resources Management, and Office of Human Resources in Washington, D.C.
                                                                               APPENDIX I




Methodology
To evaluate the extent to which financial management systems substantially comply with
federal accounting and system requirements, we reviewed audit reports covering financial
management issues during fiscal years 1997 and 1998, reviewed            documents
describing financial management system capabilities and deficiencies, and interviewed
officials to update FFMIA compliance findings from the “Audit of the Extent to Which
           Financial Management System Meets Requirements Identified in the Federal
Financial Management Improvement Act of 1996,” Audit Report No. A-000-98-003-P dated
March 2, 1998.           documents included the assertions that         managers have
decided to report in the Agency’s fiscal year 1998 Accountability Report, which will be
issued on or before April 30, 1999.

We also reviewed a comprehensive external analysis dated February 2, 1998 of NMS
conducted, at           request, by the Federal Systems Integration and Management Center,
a component of the General Services Administration. To assess progress meeting accounting
and system requirements, we compared the extent of compliance at the end of fiscal year
1998 to the extent of compliance at the end of fiscal year 1997.

To evaluate the adequacy of           efforts to correct financial management deficiencies,
we reviewed            December 1998 financial management status report, which described
         remediation plan. We also reviewed other planning-related documents,
“Chief Financial Officer Strategic Plan Fiscal Years              minutes from NMS
Executive Team and Demand Management Integrated Product Team meetings, and Financial
Management System and Managerial Cost Accounting project documents. We also
interviewed responsible         and contractor officials.
     APPENDIX II

     Page 1 of 6





--
     APPENDIX II





--
                                                                  APPENDIX II




      acquisition       phases of the




                 No.   Complete a modular                  tbat
between financial and mixed systems, takes       of         in



 mmmadarion No.      Develop   investment analysis and detailed    for
                                                                                               APPENDIX II




                                       plans                    to
             and evaluation.

                            RequirctheCFOto updaM~prtlimioaryrrmedirtionplrn
            the            of the
of




                  * . .
         AID~aRo~~l4-1Q


              team to lead,the                 analysis                                          did




lead of a              program                 will support           of            acquisitb turn
                                                                a          acquisition


contractor.




 aquisitioa planning in which a                                   is essential. We do agree that
 establishing a team early              in the acquisitioa Me-cycle to          develop a modular




     Based on       discussion above, we                  ” nzviscd                3:

                                we                   the Chief Mxmation c?fiku work
 with the Chief                Officer and the           Administrator for Management to establish
     APPENDIX II





-_
APPENDIX II

                                                                                           APPENDIX III

                                                                                            Page 1 of 17




           Extent to Which          Financial Management Systems

               Substantially Comply With        Requirements




The purposes of this appendix are to (1) document the extent to which financial management
system deficiencies have been corrected, (2) describe the nature and importance of the
requirements for an effective federal financial management system as outlined in Section 7 of
Office of Management and Budget Circular No. A-127, and (3) summarize the impact on
agency operations from not meeting the requirements. This Appendix updates information
contained in a previously issued report that provided a baseline against which progress in
correcting the system deficiencies could be

Summary of Results

        managers have committed to follow disciplined practices to modernize
systems and have taken several steps to do so. However, because significant improvements
are not achievable until existing systems are replaced or modernized-an effort that is not
scheduled to be completed until 2001USAID has made only limited progress improving its
systems during the past year. As a result, during fiscal year 1998,            financial
management systems do not yet comply substantially with (1) federal financial management
system requirements, (2) applicable federal accounting standards, and (3) the requirement to
post transactions to the United States Standard General Ledger at the transaction level, as
required by Section 803 (a) of the Federal Financial Management Improvement Act of 1996
(FFMIA). Due to these system deficiencies,             managers do not always receive the
complete, reliable, timely, and consistent information they need to reliably report financial or
performance results or efficiently manage agency operations.              management has
decided to report this condition in its fiscal year 1998 Accountability Report and is taking
action to implement a financial management system that complies with these requirements.

Requirements for Financial
Management

Financial management system requirements are designed to enable agencies to provide
complete, reliable, timely, and consistent information to decision makers and the public.
Agencies, including Treasury and OMB, need this information to (1) carry out their fiduciary
responsibilities; (2) deter fraud, waste, and abuse; (3) facilitate efficient and effective delivery

           Audit of the Extent to Which       Financial Management System Meets               Identified in the
Federal Financial Management Improvement Act of 1996, Audit Report No. A-000-98-003-P dated March 2, 1998.
                                                                               APPENDIX III
                                                                                Page 2 of 17


of programs; and (4) hold agency managers accountable for the way government programs are
managed. The Congress needs this information to oversee government operations, and the
public, to exercise their citizenship responsibilities. Thus, a key objective of financial
management systems is to ensure that reliable financial and program performance data are
obtained, maintained, and reported. Federal policy is to establish government-wide financial
management systems and compatible agency systems to accomplish these objectives.

The three system requirements identified in the FFMIA-federal requirements for financial
management systems, applicable accounting standards, and the SGL at the transaction
level-are detailed in          Circular No. A-127, Financial Management Systems. Section 7
of this Circular identifies 12 categories of requirements that a financial management system
should meet to operate effectively. - Other policy documents further detail these requirements,
including Office of Management and Budget’s Circulars No. A-130, Management of Federal
Information Resources, No. A-134, Financial Accounting Principles and Standards, No. A- 11,
Preparation and Submission of Budget Estimates, and No. A-34, Instructions on Budget
Execution; and the Treasury Department’s Treasury Financial Manual. In particular, the Joint
Financial Management Improvement Program (JFMIP) has published several documents
describing detailed functional requirements that systems should possess to perform effectively.

For purposes of this report and in order to better describe the interrelationships among the 12
requirements contained in OMB Circular A-127, we grouped the requirements into four
categories as shown in the following table.
                                                                                                                                                                                                                                                                                                               APPENDIX III

                                                                                                                                                                                                                                                                                                                Page 3 of 17


                                                     ._. . ,. .,._                                  ........ ..   .,C.....,... ..,.. .,...   ... ... .....   ..   ..,.. ‘...‘.‘.‘.‘.‘,‘.‘.‘.‘.~...~:.:.~:.:.~:.:.~:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.~~:.:.:.:.:.:.:.:.~:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.~




        :rrii,iiri~,~~~~~~~~~~~~~~~~~~~~~~~~~~~~~~~~
                 ,:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:,:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.~.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:. .:.:. .:. ,.:. :.:
                                                                                                                                             Requirements
        Accounting                                                       �        Classification structure
                                                                         �        Integrated system
                                                                          �       Application of U.S. Government Standard
                                                                                    General Ledger at the transaction level
                                                                          �       Federal Accounting Standards
                                                                          �       Functional requirements (i.e., JFMIP)
        Reporting                                                         �        Financial reporting (including performance
                                                                                     measures)
                                                                          �        Budget reporting
        Controls                                                          �        Internal controls
                                                                          �        Computer Security Act requirements
        Operations                                                        �        Documentation
                                                                          �        Training and user support
                                                                          �        Maintenance



                   Management Systems Do Not
Yet Substantially Comply With FFMIA Reauirements

To          the deficiencies in its financial management systems          began planning in
fiscal year 1998 to develop an integrated financial management system which would
substantially comply with all federal accounting and system requirements. In March 1998
         issued a General Notice stating the Agency’s commitment to implement an effective
integrated financial management system. Current             estimates call for the new system to
be fully operational in 2001.

However, during fiscal year 1998, our audits as well as         management assessments
confirmed the continuing existence of financial management system deficiencies that we
reported during fiscal year        In large part because the recently deployed New


            Audit of the Worldwide Deployment of the New Management System               Audit Report No. A-000-97­
004-P, March             Audit of         Efforts to Resolve the Year 2000 Problem Audit Report No. A-000-97-005­
P, July         mpliance
               Audit   of with Co Federal Computer Security Requirements, Audit Report No.
97-008-P, September           Audit of the Internal Controls for the Onerational New Management System Audit Report
No. A-000-97-009-P, September             and Audit of the Status of           New Management System          Audit
                                                                              APPENDIX III
                                                                               Page 4 of 17

Management System (NMS) has not operated effectively,              has had to rely on a
combination of outmoded legacy systems, informal and unofficial records maintained by
individual managers or organizational units, and NMS which suffers from technical and
operational problems. As a result, during fiscal year 1998,           financial management
systems did not substantially comply with 11 of the 12 characteristics listed in Section 7 of
the Office of Management and Budget’s Circular No. A-127. The following table shows that
        did comply with the requirement to provide adequate training to system users, which
was an improvement over last year’s results. Our analysis shows that            scheduled
regular training for NMS users, most of whom have been trained.




Report No. A-000-97-010-P, September 30, 1997.
                                                                                                 APPENDIX III

                                                                                                  Page 5 of 17



                         Substantial Compliance With Federal System Requirements

                                      1998
                                             Does Not
Requirement                Complies           Comply
                                                        Indicators of the Status of Compliance
nformation                                     X                relies on legacy systems, informal records, and NMS.
                                                        Because they lack standard data definitions or formats,
                                                        lacks an agency-wide classification structure.
Integrated System                              X        Because        relies on multiple incompatible systems that
                                                        cannot exchange data, it does not have an integrated system.
      States Standard                                   Several major categories of transactions are not supported by the
       Ledger at the                           X        U.S. Standard General Ledger at the transaction level.
           Level
             Federal                           X               does not have a managerial cost accounting system.
             Standards
         Reporting                             X              has decided to report financial reporting as a material
                                                        weakness in its FY 1998 Accountability Report
Budget Reporting                               X        The Budget system does not link budget data compiled by strategic
                                                        objective with data compiled by object code.


Functional                                     X        In two fiscal year audit reports, we identified important JFMIP
Requirements [JFMIP]                                    requirements that had not been met.

Computer Security                              X              has decided to report computer security as material
Act                                                     weakness in its FY 1998 Accountability Report

Documentation                                  X                has decided to report the lack of financial management
                                                        policies as a material weakness in its FY 1998 Accountability
                                                        Report.

Internal Controls                               X       We reported in September 1997, that the NMS did not have a
                                                        system of internal controls that met federal        standards.
                                                        These deficiencies have not yet been corrected.
Training and User              X                              established a regular NMS training program in 1998.
support                                                 Most NMS users have received adequate training.
Maintenance                                     X       NMS is difficult to maintain because numerous design and
                                                        software deficiencies exist.
                                                                                APPENDIX III
                                                                                 Page 6 of 17


The following sections summarize areas of noncompliance reported by OIG audits and
       management assessments.

Accounting

In fiscal year 1998,             net outlays totaled about $7.8 billion. In order for the
President, the Congress, and the public to have confidence that             is properly managing
operations and reliably reporting results, the financial management system needs to
incorporate federal accounting requirements. These requirements include an agency-wide
classification structure, an integrated system, implementation of the SGL at the transaction
level, applicable accounting standards, and JFMIP functional requirements.

       Classification Structure

Federal financial management systems should collect, store, and retrieve financial data based
on a standard agency-wide financial information classification structure. A standard structure
requires that common data definitions and formats be used throughout the agency to
accumulate financial and financially related information. The structure needs to support
standard reporting requirements, allow consistent tracking of program expenditures, and cover
financial and financially related information. A common classification structure minimizes
data redundancy, ensures that consistent information is collected for similar transactions,
encourages consistent formats for data entry, and ensures that consistent information is readily
available and provided to managers at all levels. The classification structure needs to cover
information needs for budget formulation, budget execution, programmatic, financial
management, performance measurement, and financial statement and other reporting
requirements.

          financial management system, however, does not contain a consistent or complete
classification structure.         currently relies on a combination of legacy systems, informal
“cuff’ records, and NMS. Because these systems do not contain standard data definitions or
formats,          lacks a consistent agency-wide classification structure. In addition, the NMS
does not include a complete classification structure. Although the new system was intended
to maintain a common classification structure,            did not accomplish this goal. To be
complete, a classification structure requires accounting events to be associated in several
different ways in order to accumulate financial information for various purposes. For
example, financial information needs to be reported by organizational unit, funding source,
and program or project. NMS, however, does not incorporate a project classification
structure, which limits the systems’ ability to accumulate financial information related to
individual initiatives. Further,         did not provide adequate guidance to users to define
how financial activities should be classified.
                                                                                APPENDIX III
                                                                                 Page 7 of 17


Unstructured classification of financial information contributes to increased data duplication,
inconsistent information, the inability to support the agency’s budget formulation and
execution functions, inaccurate performance measurement information, and difficulties
preparing reliable financial statements.

       Integrated Systems

Federal policy calls for each agency to implement an integrated financial management system.
An integrated system does not mean a single all encompassing computer system that performs
all financial functions. Instead, integrated means a unified set of systems that are planned,
managed, and operated in an integrated manner, and linked electronically to carry out the
agency’s mission and support               management needs. To be considered integrated, the
system should use (1) a common classification structure (discussed above), (2) common
transaction processing, (3) consistent internal controls, and (4) efficient transaction entry. An
integrated system is important because it provides effective and efficient interrelationships
between the software, hardware, personnel, procedures, controls, and data. For example, in an
integrated system, data supporting an accounting event would normally be entered into the
system once and then transferred electronically to update all accounts as required. This
feature reduces data entry costs and the likelihood of errors from duplicate data entry.

          financial management system, however, is not integrated.          currently relies
on numerous incompatible formal and informal financial systems that are unable to share
data. Among other problems, the lack of an integrated system compromises controls over the
funds availability function, increasing the risk that      may over-commit, over-obligate,
or over-expend funds, resulting in Anti-Deficiency Act Violations. Also, lack of integration
could result in reporting discrepancies between the amount of funds available, committed,
obligated, or expended.

       U.S. Government Standard General Ledger

The SGL establishes a standard set of accounts for financial reporting throughout the federal
government. Agency financial management systems should record financial events following
the requirements of the SGL at the transaction level. In order to ensure that government-wide
financial information is consistent and reliable, agencies need to process transactions
following the definitions and defined uses of the accounts described in SGL. Compliance
with this standard requires that (1) data in financial reports be consistent with the SGL, (2)
individual transactions be recorded consistent with SGL rules, and (3) supporting transaction
details for SGL accounts be readily available. Following the SGL enhances financial control
and supports consistent internal and external reporting for the agency and the federal
government.
                                                                                    APPENDIX III
                                                                                     Page 8 of 17


         financial management system does not implement the SGL at the transaction level.
The lack of an integrated system causes heavy reliance on manual compilations of summary
data from formal and informal systems to generate financial statements, rather than relying on
systems to account for events in SGL formats.

For example,           does not record Accounts Receivables in accordance with the SGL.

Instead,        relies on data          to obtain the total amounts of outstanding Accounts

Receivable. These data calls were posted to the General Ledger at the summary level as

opposed to at the transaction level. By using data calls to determine outstanding Accounts
Receivable,          is at risk that the information obtained is not complete. For instance,
          summarization of the data calls improperly omitted the Office of Procurement’s
outstanding Accounts Receivables.

        Federal Accounting Standards

 Accounting standards provide rules for reporting financial information in financial statements.
 Federal Accounting Standards ensure that financial reports contain understandable, relevant,
 and reliable information about the financial position, activities, and results of operations for
 each agency and the U.S. Government as a whole. Generally, the federal government
‘operates on an accrual basis of accounting. The federal government also has some unique
 accounting requirements. To standardize financial statement accounting practices, the Federal
 Accounting Standard Advisory Board                develops and recommends adoption of federal
 accounting standards, which are issued by the Director of OMB. Agencies need to
 incorporate these standards into their financial management systems to permit reporting in
 accordance with applicable accounting standards and other reporting requirements. When no
 accounting standard has been issued, agency systems can maintain and report data based on
 applicable accounting standards used by the agency for preparing its financial statements.

Currently, the FASAB has issued two accounting concepts covering (1) the objectives of
federal financial reporting, and (2) entity and display. The concepts are:

        financial reporting focuses on the uses, user needs, and objectives of financial

        reporting by the federal government, and


�       entity and display describes the basis for defining government organizations

        that should prepare financial statements.





                call is a term used to   the process of requesting various offices to compile and report
outstanding balances as of year end.
                                                                                   APPENDIX III
                                                                                    Page 9 of 17


In addition, eight accounting standards were effective for fiscal year 1998, covering
accounting requirements for:

�   selected assets and liabilities           �   managerial cost accounting

�   direct loans and loan guarantees              property, plant, and equipment

�   inventory and related property            �   revenue and other financing sources

    liabilities of the federal government     �   supplementary stewardship reporting

        has reported that neither NMS, nor the legacy systems, comply substantially with
applicable federal accounting standards. Noncompliance with Federal Accounting Standards
limits          ability to provide financial reports with understandable, relevant, and reliable
information about the financial position, activities, and results of operations.

For example, the lack of a managerial cost accounting system limits              ability to
measure the cost of its operations and results. This standard requires federal agencies to be
able to provide reliable and timely information on the full cost of federal programs, their
activities, and outputs (by responsible segments). The cost assignments should be performed
using the following methods listed in the order of preference: (a) directly tracing costs
wherever feasible and economically practicable, (b) assigning costs on a cause-and-effect
basis, or (c) allocating costs on a reasonable and consistent basis. Cost information developed
for different purposes should be drawn from a common data source, and output reports should
be reconcilable to each other. Because           does not have a cost accounting system that
meets these requirements, it is not able to segregate its costs. As a result,         has not
implemented Statement of Federal Financial Accounting Standards No. 4 and did not comply
with the following five fundamental elements of managerial cost accounting:

          Requirement for cost accounting, - Each reporting entity should accumulate and report
          the costs of its activities on a regular basis for management information purposes;
     �                   segments - Management of each reporting entity should define and
          establish responsibility segments;
     �
          Full cost - Reporting entities should report the full costs of outputs in general purpose
          financial reports;
     �               costs - Each entity’s full cost should incorporate the full cost of goods
          and services that it receives from other entities, and
                                                                                              APPENDIX III
                                                                                              Page 10 of 17

    0
         Costing methodology - Cost of resources consumed by responsibility segments should
         be accumulated by type of resource.

In addition,        has not implemented an effective accrual methodology that complies with
the standard for assets and liabilities.          accrual methodology does not properly
recognize its current liability and establish accounts payable for unpaid goods. Further,
        does not have a methodology to reduce its advances and recognize expenses when
goods or services were received, contract terms were met, progress was made under contract
or when prepaid expenses expired. Instead,            establishes estimates for Accounts
Payable and related expenses based solely on unliquidation obligations balances. No
additional information is requested or obtained to determine whether the goods or services
were actually received.


    Functional Requirements

Functional requirements for financial management systems are defined in a series of
publications issued by the Joint Financial Management Improvement Program (JFMIP).
These requirements describe in detail the functions each system must perform to meet
financial management system requirements. The Framework for Federal Financial
Management             published in 1995, describes the requirements for developing an
integrated financial management system. Core Financial Svstem Requirements, originally
published in 1988 and subsequently revised, describe detailed requirements for core
accounting               These functional requirements help ensure that financial management
systems actually contain the features necessary to meet federal accounting and reporting
requirements. OMB Circular No. A- 127 calls for core accounting systems to be tested to
ensure that they meet the JFMIP core requirements.

Other JFMIP requirements documents include:

�   Personnel/Payroll System Requirements, May 1990

�   Travel System Requirements, January 1991

�   Seized/Forfeited Asset System Requirements, March 1993

�   Direct Loan System Requirements, December 1993

�   Guaranteed Loan System Requirements, December 1993

          These include (1) core financial system management, (2) general ledger management, (3) funds management,
(4) payment management, (5) receipt management, (6) cost management, and (7) reporting.
                                                                                APPENDIX III
                                                                                Page 11 of 17


�   Inventory System Requirements, June 1995

    Managerial Cost Accounting, June 1998

        has decided to report in its fiscal year 1998 Accountability Report that NMS does not
substantially comply with federal financial management system requirements. In addition, a
U&AID-contracted study performed by IBM and titled “Analysis of Alternatives with Regard
to the         New Management System” dated February 2, 1998, stated that                 core
financial system does not meet JFMIP requirements to support the Prompt Payment Act, does
not support            external reporting needs, and does not ensure that costs are accumulated
and reported with proper matching of periods, segments, and outputs. By not meeting these
functional requirements,           is operating a system that does not perform key functions
required of federal financial management systems.

Reporting
Reporting involves summarizing reliable information on financial, performance, and budget
matters and making that information readily available to users inside and outside the agency.
In enacting the FFMIA into law, the Congress found that the accountability and credibility of
the federal government must be rebuilt and public confidence in it must be restored. In short,
agencies and managers must be able to provide information that is essential to monitor
budgets, operations, financial results, and program

A key purpose of federal financial management systems is to report financial, performance,
and budget information, so that agency programs and activities can be considered and
evaluated based on their full costs and merit. Agency management, the President, the
Congress, and citizens need access to complete, reliable, timely, and consistent information
generated from agency financial management systems.

Federal laws and executive branch policies require agencies to develop and maintain
integrated systems for reporting program results and related funding. Examples of these laws
and regulations include:

�        Office of Management and Budget Circular No. A-127 (Revised), Financial
         Management Systems, states               agency shall establish and maintain a single,
         integrated financial management system.. and] the agency financial management
         system shall be able to provide financial information in a timely and useful fashion.”

�        The Chief Financial Officers Act of 1990 (section          [D] [iv]) states: “An
         agency CFO shall develop and maintain an integrated agency accounting and financial
         management system which provides for the systematic measurement of performance.”
                                                                                  APPENDIX III
                                                                                  Page 12 of 17

�      Office of Management and Budget Bulletin No. 93-02 states: “Whenever possible
       ‘financial data should be related to other measures of              on a
       program basis. The inclusion of performance measures         facilitate using the
       financial statement to assess both financial and program performance.”

        has not yet met the above requirements.           plans, in its fiscal year 1998
Accountability Report, to state that the system does not meet some important financial
management system requirements, such as being capable of producing all required financial
reports and other management information at an acceptable level of timeliness and accuracy.

        has not developed and maintained an integrated system for reporting program results
and related funding and is currently unable to meet many of its reporting requirements. In
our September 1998 report on “The Process            Used To Prepare Its Fiscal Year 1997
Financial Statements from the General Ledger,” we found            must manually prepare its
financial statements because its financial management systems were not integrated and could
not prepare the statements electronically. Because of the reporting deficiencies:

�      Managers are unable to reliably accumulate prior or projected program or project costs
       due to the lack of a required managerial cost accounting component.

�      Unreliable or incomplete financial data is being reported to managers and to external
       parties, including OMB, Congress, and the public. To illustrate,         submitted
       financial information to OMB and to the U.S. Treasury that is materially inconsistent
       with its general ledger. This occurred in reporting the         cash balance to
       Treasury and budgetary information to OMB.

The lack of an effective integrated financial management system inhibits                ability to
relate (1) obligations and expenditures to            overall strategic goals and objectives, and
in support of each operating unit’s strategic objective and intermediate results; and (2)
program results to budget components included in its financial statements. This in turn
impairs            ability to manage for results and to report results in relation to funding.

Controls
Management controls are the organization, policies, and procedures used by agencies to
reasonably ensure that (1) programs achieve their intended results; (2) resources are used
consistent with agency mission; (3) programs and resources are protected from waste, fraud,
and mismanagement; (4) laws and regulations are followed; and (5) reliable and timely
information is obtained, maintained, reported, and used for decision making. Federal
requirements call for adequate internal and computer security controls, which should be
essential elements in the design and operation of financial management systems.
                                                                               APPENDIX III
                                                                               Page 13 of 17


       Internal Controls

A subset of management controls are the internal controls used to assure that there is
prevention or timely detection of unauthorized acquisition, use, or disposition of assets. Laws
dealing with internal controls include the (1) Accounting and Auditing Act of 1950 which
established requirements for an effective internal control system, and (2) Federal Managers’
Financial Integrity Act of 1982 which reinforced the need for effective internal controls.

Federal financial management system requirements for internal controls call for the system to
include internal controls that ensure resources use is consistent with laws, regulations, and
policies; resources are safeguarded against waste, loss, and misuse; and reliable data are
obtained, maintained, and disclosed in reports. GAO has established guidance for internal
controls in their publication Standards for Internal Controls in The Federal Government. The
following table         the areas addressed by the GAO general and specific standards for
internal controls in the federal government.
                                                                                                                                                                                                                                                                                                               APPENDIX
                                                                                                                                                                                                                                                                                                               Page 14 of 17





                                                                                                                                                                            . . .. . . ... . . . ..       . . .. ..            ..


                                                                   ........            ........ ....               ....            ......                                                .C.... .,._....._..._.. . . . . . . . . . . . . . .._.,._..
                                                                      .. ..   .... ........ .... ....              ...      ........                     ,..C. ..,C . . . . . .        .... .... ...                     ..

                                       . . .. ... ..     ... . .              . . . ...C .,..C.         ._. .._._          .. ... . ....._....._... ..        ..          .. .. . . . . . . . . . . ... . . ...                                        ..,..., ..,.....,
.....   . . . . . . . . . . . . . .._... _.,....L.....                               ...                  ... ..........                  ... .. .......... ......... ...
                                                                                         .._L.,...                                                                 ..,...,.,..C._.......i....,.,.,.                              ....           ...




 General Standards                                                                                                                                                                                                                                                         Specific Standards
 1. Reasonable Assurance                                                                                                                                                                                                                                                   1. Documentation
                                Internal control systems are to provide                                                                                                                                                                                                         Internal control systems and all transactions and other
                                reasonable assurance that the objectives of the                                                                                                                                                                                                 significant events are to be clearly documented, and the
                                system will be accomplished.                                                                                                                                                                                                                    documentation is to be readily available for examination.
2. Supportive Attitude                                                                                                                                                                                                                                                     2.   Recording of Transactions and Events
                                Managers and employees are to maintain and                                                                                                                                                                                                      Transactions and other significant events are to be
                                demonstrate a positive and supportive attitude                                                                                                                                                                                                  promptly recorded and properly classified.
                                toward internal controls at all times.
3. Competent Personnel                                                                                                                                                                                                                                                     3.   Execution of Transactions and Events
                                 Managers and employees are to have personal                                                                                                                                                                                                    Transactions and other significant events are to be
                                 and professional integrity and are to maintain a                                                                                                                                                                                               authorized and executed only by persons acting within the
                                 level of competence that allows them to                                                                                                                                                                                                        scope of their authority.
                                 accomplish their assigned duties, as well as
                                 understand the importance of developing and
                                 implementing good internal controls.

 4. Control Objectives                                                                                                                                                                                                                                                     4. Separation of Duties
                                  Internal control objectives are to be identified or                                                                                                                                                                                           Key duties and responsibilities in authorizing, processing,
                                  developed for each agency activity and are to be                                                                                                                                                                                              recording, and reviewing transactions should be separated
                                  logical, applicable, and reasonably complete.                                                                                                                                                                                                 among individuals.

  5. Control Techniques                                                                                                                                                                                                                                                    5. Supervision
                                  Internal control techniques are to be effective                                                                                                                                                                                               Qualified and continuous supervision is to be provided to
                                  and efficient in accomplishing their internal                                                                                                                                                                                                 ensure that internal control objectives are achieved.
                                  control objectives.

                                                                                                                                                                                                                                                                           6.   Access to and Accountability for Resources
                                                                                                                                                                                                                                                                                Access to resources and records is to be limited to
                                                                                                                                                                                                                                                                                authorized individuals, and accountability for the custody
                                                                                                                                                                                                                                                                                and use of resources is to be assigned and maintained.
                                                                                                                                                                                                                                                                                Periodic comparison shall be made of the resources with
                                                                                                                                                                                                                                                                                the recorded accountability to determine whether the two
                                                                                                                                                                                                                                                                                agree. The frequency of the comparison shall be a
                                                                                                                                                                                                                                                                                function of the vulnerability of the asset.
                                                                                 APPENDIX III
                                                                                 Page 15 of 17


          financial management system does not include a system of internal controls that
meets GAO’s standards for internal control. In September             we reported that the
does not include a system of internal controls that meets GAO’s Standards for Internal
Controls in the Federal Government.           other things, internal control objectives were
not identified and internal control techniques were not documented. As a result,
managers cannot reasonably ensure that the control techniques they have implemented are
effective.         has made a management decision on an OIG recommendation to
document, test, and implement a system of internal controls for NMS that comply with the
General Accounting Office’s Standards for Internal Controls in the Federal Government.
However, our continuing work and discussions with responsible financial management
officials confirm that        has not yet corrected the deficiencies.

Without adequate internal controls,          managers are unable to provide reasonable
assurance that program goals and objectives are met; resources are adequately safeguarded;
reliable data are obtained, maintained and reported; and activities comply with laws and
regulations. Because of this situation,        faces significant risks and increased
vulnerability, known and unknown, to’ fraud, waste, and abuse; and compromise of sensitive,
Privacy Act-protected information as a result of relying on        to account for and provide
management information on the use of resources and program operations.

    Computer Security

Computer security requirements comprise a subset of an organization’s overall internal
controls. These particular controls are intended to protect the integrity of sensitive information
which is stored in computer systems. However, computer security requirements are often
addressed separately from other internal controls. This separation is due to the technical
complexity involved in securing computers and the agency’s increasing reliance on computers
to store and process information.

Among the significant laws and guidelines requiring agencies to maintain an effective
computer security program are the Computer Security Act of 1987 and OMB Circular No.
A-130, Appendix III, “Security of Federal Automated Information Systems.” Specifically:

�    the Computer Security Act requires federal agencies to protect information by: (1)

     identifying sensitive systems, (2) developing and implementing security plans for

     sensitive systems, and (3) establishing a training program to increase security

     awareness and knowledge of accepted security practices.




                                                                                      No. A-000-97­
009-P September 30, 1997.
                                                                                         APPENDIX III

                                                                                         Page 16 of 17



�   Appendix III of OMB Circular A-130, which implements the requirements of the
    Computer Security Act, directs agencies to establish a security program and maintain
    an adequate level of security for sensitive systems and information.

The increasing complexity of technology and the proliferation of computers have resulted in a
greater commitment of resources to computer operations and a wide range of computer
applications.         makes extensive use of information technology in serving the public
and managing resources while executing its programs. However, the increasing reliance on
computers leaves         exposed to the risk of unauthorized modification of data; destruction
of computer resources; disruption of operations; and compromise or loss of resources,
including sensitive agency

In two companion reports, we reported that           had not implemented an effective security
program that met me requirements of the Computer Security Act of 1987 or OMB Circular
No. A-130.” Specifically, we reported that             security controls, access controls, and
change controls were not effective. These security weaknesses expose             to
unacceptable risks that resources will not be adequately protected from fraud or misuse and
that sensitive data and systems will not be adequately protected from loss or destruction.

Operations
Most computer system costs are incurred after the system becomes operational. Computer
system operations include operating the system, responding to user questions and correcting’
routine defects, enhancing system capabilities to meet new requirements, and eventually,
retiring the system. The FFMIA defines financial management systems to include not only
the hardware and software needed to support financial management, but also the automated
and manual processes, procedures, controls, data, and support personnel dedicated to the
operation and maintenance of system functions. Federal requirements call for adequate
documentation, training, and maintenance practices, which are important to ensure that the
system continues to operate efficiently and effectively.

     Documentation

Federal financial management system requirements call for agencies to adequately document
the system/software structure and capabilities, processing instructions for operating personnel,
and operating procedures and manuals for users. To be fully useful, documentation should be
kept up-to-date and be readily available for examination and use. The documentation also


        “Audit of General Controls Over           Mainframe Computer Environment (Report No. A-000-99-004-P,
March 1, 1999) and Audit of General Controls Over         Client-Server Environment      No. A-000-99-005-P,
March 1, 1999).
                                                                              APPENDIX III
                                                                              Page 17 of I7


needs to be sufficiently detailed to permit responsible personnel to understand the system and
   operations. Up-to-date documentation is needed so that users will be able to understand
how to operate the system, technical personnel will be able to keep the system functioning
effectively and efficiently, and system developers will be able to easily correct problems and
implement enhancements.

        management recognizes that financial management system documentation is not
complete or current.          has identified the lack of financial management procedures as a
material control deficiency in its Integrity Act reports since 1993.       also recognizes
that system and requirements documentation for NMS is not complete, is not up-to-date, and
does not follow prescribed standards. These deficiencies have hindered efforts to support on­
going system maintenance and operations.

    Training and User Support.

Training is important to successful implementation and ongoing operation of a financial
management system. Without proper training, users of a system may erroneously enter data,
operators may make errors that disrupt system operations, and developers may have difficulty
implementing new requirements. Federal financial management system requirements call for
agencies to provide adequate training and appropriate support-based on the level of
responsibility and roles of individual      to enable the users of the system at all levels to
understand, operate, and maintain the system efficiently and effectively. This requires
implementation of a comprehensive training program for system developers, computer
operators, and users.

During fiscal year 1998,        implemented a regular NMS training program. The program
included monthly courses in budget, reporting, operations, and several other NMS areas.

    Maintenance

On-going system maintenance needs to be performed to enable the system to continue
operating effectively and efficiently. Agencies should periodically evaluate how well the
system supports changing business practices and make appropriate modifications through its
maintenance program.

          financial management systems, however, are difficult and expensive to maintain.
Maintenance is difficult because (1) legacy systems are outdated, (2) informal locally
developed systems that are not well documented, and (3) NMS suffers from design
deficiencies, software defects, and documentation gaps.
